            DEPARTMENT OF HEALTH AND HUMAN SERVICES                              Office of Inspector General
                                                                                  Office of Audit Services

                                                                                        REGION IV
                                                                            61 Forsyth Street, S.W., Suite 3T41
                                      SEP     4 2008                             Atlanta, Georgia 30303




Report Number: A-04-08-06009

Mr. Bruce W. Hughes
President and Chief Operating Officer
Palmetto GBA
2300 Springdale Drive, Building 1
Camden, South Carolina 29020

Dear Mr. Hughes:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office of Inspector
General (OIG), final report entitled "Review of High-Dollar Payments for Outpatient Services
Processed by Palmetto GBA, Intermediary #380, for the Period January 1, 2004, Through
December 31, 2005." We will forward a copy of this report to the HHS action official noted on
the following page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Pursuant to the principles of the Freedom ofInformation Act, 5 U.S.c. § 552, as amended by
P.L. No. 104-231, OIG reports generally are made available to the public to the extent the
information is not subject to exemptions in the Act (45 CFR pt. 5). Accordingly, this report will
be posted on the Internet at http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
contact Mary Ann Moreno, Audit Manager, at (904) 232-2687 or through e-mail at
Mary.Moreno@oig.hhs.gov. Please refer to report number A-04-08-06009 in all
correspondence.

                                             Sincerely,




                                            ~             ?f)J.(/L
                                             Pe er J. Barbera
                                               egional Inspector General
                                              for Audit Services
                                                                           I'
Enclosure
Page 2 - Mr. Bruce W. Hughes

Direct Reply to HHS Action Official:

Ms. Nanette Foster Reilly, Consortium Administrator
Consortium for Financial Management & Fee for Service Operations
Centers for Medicare & Medicaid Services
601 East 12th Street, Room 235
Kansas City, Missouri 64106
Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




   REVIEW OF HIGH-DOLLAR
  PAYMENTS FOR OUTPATIENT
    SERVICES PROCESSED BY
PALMETTO GBA, INTERMEDIARY
     #380, FOR THE PERIOD
  JANUARY 1, 2004, THROUGH
      DECEMBER 31,2005




                    Daniel R. Levinson
                     Inspector General

                     September 2008
                     A-04-08-06009
                    Office ofInspector General
                                     http:// oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office ofAudit Services

The Office of Audit Services (OAS) provides all auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance ofHHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments ofHHS programs
and operations. These assessments help reduce waste, abuse, and mismanagement and promote
economy and efficiency throughout HHS.

Office ofEvaluation and Inspections

The Office of Evaluation and Inspections (OEl) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
Specifically, these evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness in departmental programs. To promote impact, the
reports also present practical recommendations for improving program operations.

Office ofInvestigations

The Office of Investigations (01) conducts criminal, civil, and administrative investigations of
allegations of wrongdoing in HHS programs or to HHS beneficiaries and of unjust enrichment
by providers. The investigative efforts of OI lead to criminal convictions, administrative
sanctions, or civil monetary penalties.

Office of Counsel to the Inspector General

The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
in OIG's internal operations. OCIG imposes program exclusions and civil monetary penalties on
health care providers and litigates those actions within HHS. OCIG also represents OIG in the
global settlement of cases arising under the Civil False Claims Act, develops' and monitors
corporate integrity agreements, develops compliance program guidances, renders advisory
opinions on OIG sanctions to the health care community, and issues fraud alerts and other
industry guidance.
                           Notices


       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov

Pursuant to the principles of the Freedom of Information Act, 5 U.S.C.
§ 552, as amended by Public Law 104-231, Office of Inspector General
reports generally are made available to the public to the extent the
information is not subject to exemptions in the Act (45 CFR part 5).

 OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and
any other conclusions and recommendations in this report represent the
findings and opinions of OAS. Authorized officials of the HHS operating
divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

Pursuant to Title XVIII ofthe Social Security Act (the Act), the Medicare program provides
health insurance for people age 65 and over and those who are disabled or have permanent
kidney disease. The Centers for Medicare & Medicaid Services, which administers the program,
contracts with fiscal intermediaries to process and pay Medicare Part A claims submitted by
hospitals. The intermediaries use the Fiscal Intermediary Standard System and the Centers for
Medicare & Medicaid Services' Common Working File (CWF) to process claims. The CWF can
detect certain improper payments during prepayment validation.

During our audit period (calendar years (CY) 2004 and 2005), Palmetto GBA (Palmetto) was the
fiscal intermediary in South Carolina. Palmetto processed 12 outpatient claims totaling $846,832
during this period that had a payment of $50,000 or more (high-dollar payments).

OBJECTIVE

Our objective was to determine whether high-dollar Medicare payments that Palmetto made to
hospitals for outpatient services were appropriate.

SUMMARY OF FINDINGS

Of the 12 high-dollar payments that Palmetto made for outpatient services for CYs 2004 and
2005, 6 were appropriate. The remaining six payments included overpayments totaling
$275,977.

Contrary to Federal guidance, hospitals inaccurately reported units of service. The hospitals
attributed the incorrect claims to clerical errors or pharmacy systems with calculation errors in
the billing template.

Palmetto made the overpayments because it did not have prepayment or postpayment controls to
identify aberrant payments at the claim level. In addition, neither the Fiscal Intermediary
Standard System nor the CWF had sufficient edits in place during CYs 2004 and 2005 to detect
and prevent excessive payments.

RECOMMENDATION

We recommend that Palmetto recover the $275,977 in identified overpayments.

PALMETTO GBA COMMENTS

In written comments on our draft report, Palmetto agreed to recover the $275,977 in
overpayments. The complete text of Palmetto's comments is included as the Appendix.




                                                 1
                              TABLE OF CONTENTS




INTRODUCTION                                      1

  BACKGROUND                                      1
    Medicare Fiscal Intermediaries                1
    Claims for Outpatient Services                1
    Palmetto GBA                                  1

  OBJECTNE, SCOPE, AND METHODOLOGY                1
    Objective                                     1
    Scope                                         2
    Methodology                                   2

FINDINGS AND RECOMMENDATION                       3

  FEDERAL REQUIREMENTS                            3

  INAPPROPRIATE HIGH-DOLLAR PAYMENTS              3

  CAUSES OF OVERPAyMENTS                          3

  FISCAL INTERMEDIARY PREPAYMENT EDIT             .4

  RECOMMENDATION                                  4

  PALMETTO GBA COMMENTS                           4

APPENDIX

 PALMETTO GBA COMMENTS




                                      11
                                       INTRODUCTION

BACKGROUND

Pursuant to Title XVIII of the Social Security Act (the Act), the Medicare program provides
health insurance for people age 65 and over and those who are disabled or have permanent
kidney disease. The Centers for Medicare & Medicaid Services (CMS) administers the program.

Medicare Fiscal Intermediaries

CMS contracts with fiscal intermediaries to, among other things, process and pay Medicare Part
A claims submitted by hospital outpatient departments. The intermediaries' responsibilities
include determining reimbursement amounts, conducting reviews and audits, and safeguarding
against fraud and abuse. Federal guidance provides that intermediaries must maintain adequate
internal controls over automatic data processing systems to prevent increased program costs and
erroneous or delayed payments.

To process hospitals' outpatient claims, the intermediaries use the Fiscal Intermediary Standard
System and CMS's Common Working File (CWF). The CWF can detect certain improper
payments during prepayment validations.

In calendar years (CY) 2004 and 2005, fiscal intermediaries processed and paid approximately
278 million outpatient claims, 989 of which resulted in payments of$50,000 or more (high-
dollar payments).

Claims for Outpatient Services

Medicare guidance requires hospitals to submit accurate claims for outpatient services.
Hospitals should use the appropriate Healthcare Common Procedure Coding System (HCPCS)
codes and report units of service as the number of times that a service or procedure was
performed.

Palmetto GBA

During CYs 2004 and 2005, Palmetto GBA (Palmetto) was the fiscal intermediary in South
Carolina. Palmetto processed 12 outpatient claims totaling $846,832 during this period that had
a payment of $50,000 or more (high-dollar payments).

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether high-dollar Medicare payments that Palmetto made to
hospitals for outpatient services were appropriate.




                                                1
Scope

We reviewed the 12 high-dollar payments for outpatient claims that Palmetto processed during
CYs 2004 and 2005. We limited our review of Palmetto's internal control structure to those
controls applicable to the 12 high-dollar claims because our objective did not require an
understanding of all internal controls over the submission and processing of claims. Our review
allowed us to establish a reasonable assurance regarding the authenticity and accuracy ofthe data
obtained from the National Claims History file, but we did not assess the completeness of the
file.

We performed our fieldwork from July 2007 through May 2008. Our fieldwork included
contacting Palmetto, located in Columbia, South Carolina, and the hospitals that received high-
dollar payments.

Methodology

To accomplish our objective, we:

   •    reviewed applicable Federal laws, regulations, and guidance;

   •    used CMS's National Claims History file to identify Medicare Part A outpatient claims
        with high-dollar payments;

   •    reviewed available CWF claims histories for claims with high-dollar payments to
        determine whether the claims had been canceled and superseded by a revised claim or
        whether the payments remained outstanding at the time of our fieldwork;

   •    contacted the hospitals that received the high-dollar payments to determine whether the
        information on the claims was correct and, if not, why the claims were incorrect and
        whether the hospitals agreed that refunds were appropriate; and

   •    confirmed with Palmetto that partial overpayments occurred and refunds were
        appropriate.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objective. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.




                                                2
                                FINDINGS AND RECOMMENDATION

Of the 12 high-dollar payments that Palmetto made for outpatient services for CYs 2004 and
2005,6 were appropriate. The remaining six payments included overpayments totaling
$275,977.

Contrary to Federal guidance, hospitals inaccurately reported units of service. The hospitals
attributed the incorrect claims to clerical errors or pharmacy systems with calculation errors in
the billing template.

Palmetto made the overpayments because it did not have prepayment or postpayment controls to
identify aberrant payments at the claim level. In addition, neither the Fiscal Intermediary
Standard System nor the CWF had sufficient edits in place during CYs 2004 and 2005 to detect
and prevent excessive payments.

FEDERAL REQUIREMENTS

Section 9343(g) ofthe Omnibus Budget Reconciliation Act of 1986, P.L. No. 99-509, requires
hospitals to report claims for outpatient services using HCPCS codes. CMS' s "Medicare Claims
Processing Manual," Publication No. 100-04, chapter 4, section 20.4, states: "The definition of
services units ... is the number of times the service or procedure being reported was performed."
In addition, chapter 1, section 80.3.2.2, of this manual states: "In order to be paid correctly and
promptly, a bill must be completed accurately."

Section 3700 of the "Medicare Intermediary Manual" states: "It is essential that you [the fiscal
intermediary] maintain adequate internal controls over Title XVIII [Medicare] automatic data
processing systems to preclude increased program costs and erroneous and/or delayed
payments."

INAPPROPRIATE HIGH-DOLLAR PAYMENTS

Palmetto made six overpayments totaling $275,977 on claims hospitals submitted with incorrect
units of service. Hospitals attributed the incorrect claims to clerical errors or to pharmacy and
billing systems that could not detect and prevent the incorrect billing of units of service.

CAUSES OF OVERPAYMENTS

During CYs 2004 and 2005, Palmetto did not have prepayment or postpayment controls to
identify aberrant payments at the claim level, and the CWF lacked prepayment edits to detect and
prevent excessive payments. In effect, CMS relied on hospitals to notify the fiscal intermediaries
of excessive payments and on beneficiaries to review their "Explanation of Medicare Benefits"
and disclose any overpayments. 1



IThe fiscal intermediary sends an "Explanation of Medicare Benefits" notice to the beneficiary after the hospital
files a claim for Part A service(s). The notice explains the service(s) billed, the approved amount, the Medicare
payment, and the amount due from the beneficiary.


                                                          3
FISCAL INTERMEDIARY PREPAYMENT EDIT

On January 3,2006, after our audit period, eMS required intermediaries to implement a Fiscal
Intermediary Standard System edit to suspend potentially excessive Medicare payments for
prepayment review. The edit suspends high-dollar outpatient claims and requires intermediaries
to determine the legitimacy of the claims.

RECOMMENDATION

We recommend that Palmetto recover the $275,977 in identified overpayments.

PALMETTO GBA COMMENTS

In its August 5, 2008 written comments on our draft report, Palmetto agreed to recover the
$275,977 in overpayments. The complete text of Palmetto's comments is included as the
Appendix.




                                               4
APPENDIX
                                                                                                                            APPENDIX
                                                                                                                             Page 1 of2



             Palmetto GBA,"                                                                                             Bruce W. Hughes
                                                                                                 F'~\::~sjdent;~):nd Cl'ii~}f ()P(~1.~j'Ul~!~   O'ilJc:c(




August 5, 2008


Mr. Peter J. Barbera
Regional Inspector General for Audit Services
Department of Health and Human Services
Office of Inspector General
61 Forsyth Street, S.W., Suite 3T41
Atlanta, Georgia 30303

Reference: Draft Report No. A-04-08-06009

Dear Mr. Barbera:

This letter is in response to the recent Office of Inspector General (OIG) draft report entitled "Review of
High-Dollar Payments for Outpatient Services Processed by Palmetto GBA,lntennediary #380. for the
Period January 1, 2004, Through December 31,2005." We appreciate the feedback that your review
provided and are committed to continuously improving our service to the Medicare beneficiaries and
providers we serve.

As stated in the draft report, overall it was found that six of the twelve outpatient claims reviewed
resulted in overpayments totaling $275,977. It was determined that the hospitals inaccurately reported
units of service. The hospitals attributed the incorrect claims to clerical errors or pharmacy systems with
calculation errors in the billing template. At the time, Palmetto GBA made the overpayments because it
did not have prepayment or postpayment controls to identify aberrant payments at the claim level. In
addition, neither the Fiscal Intennediary Standard System nor the Common Working File had sufficient
edits in place during calendar years 2004 and 2005 to detect and prevent excessive payments.

In December 2005, Palmetto GBA implemented a prepayment FISS edit to identify aberrant payments at
the claim level with a threshold of $50,000 and an effective date of January 1, 2006. We continue to
explore opportunities to expand and implement additional prepayment edits to mitigate excessive
payments. In addition, we maintain a consistent approach in our provider education focusing on
accurate billing. Our efforts have been very successful as demonstrated in the most recent Part A CERT
scores for Palmetto GBA.

Palmetto OBA will adhere to the recommendations set forth by the OIG review to recover the $275,977
in identified overpayments. Once Palmetto OBA receives verification of the six claims from 010, a
notification will be sent to all providers informing them of the anticipated adjustment. We anticipate
timely completion ofall adjustments upon receipt.




                                    www,palmetlogba,oomIPost Office Box 100134
                                          ISO 9001 :2000 Columbia, Soulh Carolina :lS202·at3'l
                                                                                                  APPENDIX
                                                                                                   Page 2 of2


Mr. Peter J. Barbera
August 5. 2008
Page 2



    Thank you for providing Palmetto OBA with the opportunity to provide feedback regarding your
    review. Ifyou have any questions, please do not hesitate to contact me at 803-763-7130.

                                                                       Sincerely.


                                                             ~wrl.L~
    cc: Sandra Brown. Atlanta Regional OffICe, eMS
        John Delaney. Dallas Regional Office. eMS




                                                         I
                                    -.;paImettogb8.com Post OffiCe Bole 100134
                                           ISO 'ilOOl :2000 ColUmbia, SCutll Caroliml29202·3134
